Ti

Q@OCKLE

L egal B riefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-20

WILLIAM ANDREOLL, et al.,
Petitioners,
v.
YYOUNGEVITY INTERNATIONAL CORP., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’
OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 8403 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LK .
My Commission Expires Nov 24, 2020 «

Notary Public Affiant

 

 

38458
